                                     EXPORT-IMPORT BANK
 OSVALDO L. GRATACÓS                 of the UNITED STATES
 INSPECTOR GENERAL

FOR IMMEDIATE RELEASE                                                 September 11, 2013
Media Contact: 202-565-3908

                   Mexican Farm Owner Sentenced For Scheme to Defraud
                        the Export-Import Bank of the United States
Washington, DC – The Office of Inspector General (OIG) for the Export-Import Bank of the United
States (Ex-Im Bank) announced that Alfredo Rodela-Campos, a Mexican farm owner, was
sentenced to serve 3 years’ probation for his role in a scheme to defraud Ex-Im Bank of
approximately $291,550.
Judge Kathleen Cardone, U.S. District Court in El Paso, TX, sentenced Rodela. In addition to his
term of probation, Rodela was ordered to pay $154,463 in restitution and $291,500 in forfeiture.
Rodela, who is a citizen of Mexico, pleaded guilty on January 8, 2013, to one count of money
laundering conspiracy, one count of conspiracy to commit wire fraud, and one count of wire fraud
in connection with a scheme to defraud Ex-Im Bank of approximately $291,550.
According to court documents, Rodela was the owner of a farm in Chihuahua, Chihuahua, Mexico.
According to court records, Rodela admitted that he and co-conspirators created false invoices,
shipping documents, financial statements, and other documents that were submitted to a bank in
Miami, FL. The false documents, which falsely purported to purchase construction equipment,
were ultimately submitted to Ex-Im Bank to insure the financial transaction. Rodela admitted
that, in fact, none of the equipment was purchased or exported to Rodela in Mexico. Instead,
Rodela and his co-conspirators split the Ex-Im Bank insured loan proceeds and ultimately Rodela
defaulted on his loan in late 2007, causing a loss to Ex-Im Bank and the U.S. government of
$257,463.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office, Western
District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG, Homeland Security
Investigations in El Paso; Internal Revenue Service-Criminal Investigation in Washington, D.C., and
the U.S. Postal Inspection Service in Washington, D.C. investigated the case.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by filling
gaps in private export financing. Ex-Im Bank provides a variety of financing mechanisms to help
foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and investigates
complaints and information concerning violations of law, rules or regulations, fraud against Ex-Im
Bank, mismanagement, waste of funds, and abuse of authority connected with Ex-Im Bank's
programs and operations. Additional information about the OIG can be found at
www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse related to Ex-Im Bank
programs and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or
via email at IGhotline@exim.gov.
                                              ###


                 811 Vermont Avenue, N.W. Washington, D.C. 20571
